              Audit Report



 Information Technology Service
Contract with Booz Allen Hamilton,
               Inc.




       A-14-13-13009 | August 2014
MEMORANDUM


Date:      August 14, 2014                                                    Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Information Technology Service Contract with Booz Allen Hamilton, Inc. (A-14-13-13009)

           The attached final report presents the results of our audit. Our objectives were to (1) determine
           whether the Social Security Administration received the goods and services for which it
           contracted and (2) review the services provided by Booz Allen Hamilton, Inc., and the related
           costs charged to the Agency for adherence to the negotiated terms and applicable regulations.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Information Technology Service Contract with Booz Allen
Hamilton, Inc.
A-14-13-13009
August 2014                                                              Office of Audit Report Summary

Objectives                               Our Findings

Our objectives were to (1) determine     Based on our analysis, we determined that SSA ultimately received
whether the Social Security              the services for which it contracted and was generally satisfied with
Administration (SSA) received the        BAH’s work. However, we found that SSA
goods and services for which it
contracted and (2) review the services      did not always include appropriate, measurable requirements in
provided by Booz Allen Hamilton,             its Statements of Work;
Inc., (BAH) and the related costs           did not fully comply with the Federal Acquisition Regulation’s
charged to SSA for adherence to the          requirements for price reasonableness evaluations; and
negotiated terms and applicable
regulations.                                accepted quotes and invoices from BAH that did not meet the
                                             Agency’s requirements.
Background
                                         Our Recommendations
On September 16, 2008, SSA entered
into a 5-year Blanket Purchase           Although the BPA expired on September 15, 2013, we believe SSA
Agreement (BPA) with BAH to place        should consider the issues we identified in our audit when entering
orders for information technology-       into, and managing, future contracts/BPAs. Therefore, when
related commercial services under the    acquiring specialized commercial advisory and assistance services
Federal Supply Schedule.                 through the Federal Supply Schedule, we recommend that SSA:

As of September 15, 2013, when the       1. Issue Statements of Work that include sufficient details to
BPA expired, SSA had issued 91 calls        enable the Agency to assess the contractors’ work performance
and obligated $45 million.                  against measurable performance standards.

                                         2. Consider the proposed level of effort and mix of labor to
                                            perform specific tasks to determine whether the total price is
                                            reasonable before accepting a contractor’s quote.

                                         SSA agreed with our recommendations.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................3
     Statements of Work....................................................................................................................3
     Price Reasonableness Evaluations .............................................................................................5
     Actual Cost Details ....................................................................................................................6
Conclusions ......................................................................................................................................7
Recommendations ............................................................................................................................7
Agency Comments ...........................................................................................................................7
Other Matters ...................................................................................................................................7
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Agency Comments .............................................................................................. B-1
Appendix C – Major Contributors.............................................................................................. C-1




Information Technology Service Contract with Booz Allen Hamilton (A-14-13-13009)
ABBREVIATIONS
BAH                  Booz Allen Hamilton, Inc.

BPA                  Blanket Purchase Agreement

FAR                  Federal Acquisition Regulation

GSA                  General Services Administration

OIG                  Office of the Inspector General

SOW                  Statement of Work

SSA                  Social Security Administration




Information Technology Service Contract with Booz Allen Hamilton (A-14-13-13009)
OBJECTIVES
Our objectives were to (1) determine whether the Social Security Administration (SSA) received
the goods and services for which it contracted and (2) review the services provided by
Booz Allen Hamilton, Inc., (BAH) and the related costs charged to SSA for adherence to the
negotiated terms and applicable regulations.

BACKGROUND
The General Services Administration (GSA) manages the Federal Supply Schedule, which
provides agencies with a simplified process for obtaining commercial supplies and services. 1
GSA, the Department of Defense, and the National Aeronautics and Space Administration jointly
issue the Federal Acquisition Regulation (FAR), 2 which establishes uniform policies and
procedures for Executive agencies’ acquisition of goods and services. 3

GSA contracted with BAH to provide multiple services, including consultation services. 4 This
contract is available to Federal agencies through the Federal Supply Schedule. Included in the
contract are established hourly labor rates for services that GSA has determined are fair and
reasonable.

On September 16, 2008, SSA awarded a Blanket Purchase Agreement (BPA) with BAH to place
orders for specialized advisory and assistance services under the consultation services category
of the GSA/BAH contract. 5 Under the BPA, BAH provided the following types of services:

     strategic technology planning;
     information technology project management support;
     information technology-related business support services; and
     systems security advisory services.




1
    FAR 8.402(a).
2
 We used the FAR that was in effect (FAR version FAC-2005-27, archived September 17, 2008) when the BPA
was established on September 16, 2008. For a list of archived versions of the FAR, see
http://acquisition.gov/far/old_html.html.
3
    FAR 1.101 and Foreword section.
4
 GSA Mission-Oriented Business Integrated Services Schedule Contract Number GS-23F-9755H. The contract
period is October 1, 1997 through September 30, 2017.
5
  SSA Award Number SS00-08-40029. FAR 13.303-1, states, in part, that “A blanket purchase agreement (BPA) is
a simplified method of filling anticipated repetitive needs for supplies or services by establishing ‘charge accounts’
with qualified sources of supply…”



Information Technology Service Contract with Booz Allen Hamilton (A-14-13-13009)                                     1
When the Agency needed services that were available through the BAH contract, it used the
BPA to obtain the services. To request services under the BPA, the FAR generally required that
the Agency issue a Request for Quotation that included a Statement of Work.

         Statement of Work (SOW). The FAR requires that agencies seeking commercial services
          priced at hourly rates prepare a SOW. 6 The FAR requires that the SOW include, among
          other things, the work to be performed and applicable performance standards. 7 To the
          maximum extent practicable, the agency requirements shall be performance-based
          statements. 8

         Request for Quotation. The FAR generally requires that agencies prepare a Request for
          Quotation when ordering services requiring a SOW. 9 The Request for Quotation must
          include the SOW and evaluation criteria. 10 For the BAH BPA, the Agency’s Request for
          Quotations specifically requested that BAH include cost details on the labor mix and level of
          effort required to complete the work. 11

In response to the Requests for Quotation, BAH prepared quotes. The FAR requires that SSA
consider the level of effort and mix of labor to perform the specific task being ordered and
determine that the proposed total price was reasonable. 12 Once SSA accepted the quote and the
Agency and BAH agreed to terms, SSA placed the order and the work commenced.

As of September 15, 2013, when the BPA expired, SSA had issued 91 calls and obligated
$45 million.13

To accomplish our objectives, we obtained and reviewed the BPA, supporting documents, and
applicable Federal laws and regulations. In addition, we selected and tested deliverables and
invoices from 15 of the completed calls. See Appendix A for additional information about our
scope and methodology.




6
    FAR 8.405-3(b)(3).
7
    FAR 8.405-2(b).
8
    Id.
9
    FAR 8.405-2(c).
10
     Id.
11
  SSA requested this information for calls 1 through 75, and 77; and requested a subset of this information for calls
76 and 78 through 83. For calls 84 through 91, SSA issued emails requesting quotes. These emails did not contain
any evaluation criteria, but did include the SOW as an attachment.
12
     FAR 8.404(d) and FAR 8.405-2(d).
13
  While September 15, 2013 was the deadline for issuing calls against the BPA, some calls remained in-progress
after that date. As of December 17, 2013, the Agency paid BAH $41.6 million.



Information Technology Service Contract with Booz Allen Hamilton (A-14-13-13009)                                        2
RESULTS OF REVIEW
We determined that SSA ultimately received the services for which it contracted and was
generally satisfied with BAH’s work. However, we found that SSA

      did not always include appropriate, measurable requirements in its SOWs;
      did not fully comply with FAR requirements for price reasonableness evaluations; and
      accepted quotes and invoices from BAH that did not meet the Agency’s requirements.

Statements of Work
The FAR requires that SOWs include applicable performance standards, 14 which establish the
performance level required by the Government to meet the contract requirements. 15
Performance-based standards are required to be measurable and structured to permit an
assessment of the contractor’s performance. 16 Further, SSA’s SOW policies state, in part,

           The specification/SOW provides the basis for judging whether or not the contractor
           has met your requirements.

           The SOW is a detailed description of work or services to be performed under a
           contract and therefore expresses exactly what the contractor and SSA are mutually
           agreeing to.

           If requirements are not clearly and concisely stated, the contractor may perform in
           exact accordance with the contract, but provide unsatisfactory service or products. If
           there is any ambiguity or room for interpretation, contractors can be expected to make
           interpretations that work to their own advantage.17

Without specific performance standards, SSA may have received services under the contract that
it did not need, or were not of value to the Agency. Following are two examples.

Post-Implementation Reviews. The Office of Management and Budget requires that Federal
agencies conduct “. . . post-implementation reviews of information systems and information
resource management processes to validate estimated benefits and costs, and document effective
management practices for broader use…” 18 In addition, the Office of Management and Budget


14
   FAR 8.405-2(b). “To the maximum extent practicable, agency requirements shall be performance-based
statements . . . .” Id. See also FAR 37.603(a).
15
     FAR 37.603(a).
16
     Id.
17
  SSA, Administrative Instructions Manual System, Material Resources Manual 06.19.10, August 12, 2004,
Attachment A, § C.12.
18
  Office of Management and Budget Circular A-130, Management of Federal Information Resources,
Section 8b(1)(d)(i).



Information Technology Service Contract with Booz Allen Hamilton (A-14-13-13009)                         3
recommended that agencies consider various factors when conducting post-implementation
reviews, including strategic and mission impact and effectiveness; customer and user
satisfaction; investment performance; and evaluations of accuracy, timeliness, and quality of
project information. 19

SSA issued three calls related to developing and using a post-implementation review framework
for the Agency’s information technology projects: calls 16, 31, and 83. The SOWs for calls
16 and 31 did not specify that the framework must meet Federal requirements. BAH used the
framework it developed under these two calls to conduct post-implementation reviews of two
SSA projects. 20

In a prior OIG review, we found that the framework BAH developed—and used to perform two
post-implementation reviews—did not fully meet Federal and SSA requirements. 21 After we
issued our evaluation report, SSA issued a third call: call 83. In response to call 83, BAH
provided guidance that appeared to meet Federal requirements. 22

The total cost for these three post-implementation review calls was $805,558. Had SSA
carefully designed the first call to require that the deliverable—the post-implementation review
framework—meet Federal requirements, SSA may have been able to avoid some of the costs of
the subsequent calls.

Security Metrics Handbook. SSA issued a SOW with a task for BAH to produce a Security
Metrics Handbook. The SOW stated,

           The contractor shall produce a Security Metrics Handbook for the Agency. This will
           be done using a security measurement approach based on following [National Institute
           of Standards and Technology] 800-80 “Guide for Developing Performance Metrics
           for Information Security” and . . . 800-55 “Security Metrics Guide for Information
           Technology Systems.” The contractor shall use a best practices approach to address
           the challenges the Agency must address to effectively manage and disseminate
           information to decision makers.




19
     Office of Management and Budget, Capital Programming Guide, Version 2.0, June 2006, p. 58-59.
20
     The two projects were iClaim (Call 16) and e-Pulling (Call 31).
21
  SSA OIG, The Social Security Administration’s Post-Implementation Review Process (A-14-10-30105),
June 22, 2010.
22
  Prior OIG and Government Accountability Office reviews provided the Federal requirements that must be met.
Nonetheless, in SSA’s SOW, the Agency asked BAH to research and obtain the appropriate Federal guidance.
SSA OIG, The Social Security Administration’s Post-Implementation Review Process (A-14-10-30105),
June 22, 2010; SSA OIG, Social Security Administration’s Management of Information Technology Projects
(A-14-07-17099), July 26, 2007; and GAO-08-1020, SSA Has Taken Key Steps for Managing Its Investments, but
Needs to Strengthen Oversight and Fully Define Policies and Procedures, September 2008.



Information Technology Service Contract with Booz Allen Hamilton (A-14-13-13009)                               4
We believe SSA should include in its SOWs measurable performance standards and the methods
the Agency will use to assess contractor performance against performance standards. 23 Although
SSA stated the contractor must develop a Handbook using an approach that is based on Federal
standards, the Agency did not include in the SOW the specific performance standards that were
required. Instead, BAH listed in its quote the details of what the Handbook would contain.

BAH revised the Handbook several times over 8 months before delivering the latest draft version
to the Agency. 24 We believe the omission of measurable requirements in the SOW led to delays
in obtaining a final version of the Handbook. 25

Price Reasonableness Evaluations
SSA concluded that BAH’s rates were fair and reasonable because the proposed rates met the
terms of the BPA and were equal to or lower than BAH’s established GSA schedule prices.
However, the FAR generally requires that agencies consider the proposed level of effort and mix
of labor to perform specific tasks being ordered and determine whether the total price is
reasonable before accepting a contractor’s quote. 26 In addition, as part of the ordering
procedures, the FAR requires that agencies document the evaluation methodology used in
selecting the contractor to receive an order and the price reasonableness determinations. 27

To determine whether the total price quoted by a vendor is reasonable, agencies should
determine whether the total number of hours seems realistic to achieve the SOW objectives. In
addition, the agencies should determine whether the quoted position types—and the number of
estimated hours per position type—are reasonable for each task in the SOW.

Although required by the Agency’s Requests for Quotation, none of BAH’s price quotes in the
15 calls we reviewed contained the labor-hour estimates, detailed by skill category and applied to
each task’s milestones or deliverables. Furthermore, SSA accepted BAH’s quotes even though it
did not have this information. In addition, in only 1 of the 15 calls, were we able to find
documentation indicating that SSA evaluated the reasonableness of the prices. In the remaining




23
   The FAR states, “Performance-based contracts for services shall include – . . . (2) Measurable performance
standards . . . and the methods of assessing contractor performance against performance standards.”
FAR 37.601(b)(2). We believe this requirement should apply to BPAs as well.
24
  BAH submitted a version to SSA on January 21, 2009 and a modified, version on April 6, 2009. Then, BAH
submitted another revision on July 10, 2009. As of August 17, 2009, the last correspondence we obtained showed
that SSA components had until August 21, 2009 to complete their comments.
25
  By the time SSA implemented the Handbook—which cost $107,000—the Federal security community was taking
a different direction regarding security monitoring. The Handbook served briefly as a transition guide until SSA
implemented its continuous monitoring strategy and adopted tools to provide security program metrics. On
December 9, 2013, the Agency informed us that it had stopped using the Handbook.
26
     FAR 8.404(d) and FAR 8.405-2(d).
27
     FAR 8.405-2(e)(4) and (6).



Information Technology Service Contract with Booz Allen Hamilton (A-14-13-13009)                                 5
14 calls, SSA did not formally assess the level of effort and labor mix to determine the
reasonableness of the overall price.

The FAR also requires that agencies document the rationale for using other than a
firm-fixed-price or performance-based order. 28 Of the 15 calls in our sample, 9 were
firm-fixed-price orders. 29 The remaining six were other types of orders (for example, a
time-and-materials order); 30 however, SSA did not document its rationale for selecting the order
type, as required by the FAR. 31

Without detailed cost information, SSA may have been unable to consider the level of effort and
mix of labor proposed to perform specific tasks and determine whether the total price was
reasonable. Furthermore, the information is necessary for SSA to determine the appropriate type
of order to use and document that determination, as required by FAR.

By not having detailed cost information when evaluating the reasonableness of the quotes, SSA
is at risk of not obtaining the best value at the lowest cost to meet its needs.

Actual Cost Details
The terms of the BPA required that the vendor supply SSA with an accounting of the direct labor
charged, by labor category, for each deliverable of each call. This accounting must list each
employee, the hours worked, and the hourly rate. 32

We reviewed two invoices for each call in our sample. For the 15 calls in our sample, we found
that BAH did not provide the cost information required by the BPA when submitting
deliverables to SSA. 33 Nonetheless, SSA accepted and paid the invoices, and did not enforce the
BPA requirements. 34




28
     FAR 8.405-2(e)(7)(i).
29
  A firm-fixed price contract/order provides for a price that is not subject to any adjustment on the basis of the
contractor’s cost experience in performing the contract. FAR 16.202-1.
30
  A time and materials contract/order provides for acquiring supplies or services on the basis of direct labor hours at
specified fixed hourly rates and the actual cost for materials. FAR 16.601(b)(1) and (2).
31
     FAR 8.405-2(e)(7)(i); FAR 12.207(b); and FAR 16.601 (c).
32
  SSA, SS00-08-40029, Blanket Purchase Agreement (BPA) for Specialized Advisory and Assistance Services,
§ A.1.7.
33
  BAH submitted monthly invoices, but only those for the six calls using a time and material ordering approach had
accounting data similar to the BPA deliverable requirements. However, none of these invoices linked the cost
information to the deliverables.
34
     We found no evidence that SSA and BAH subsequently modified the BPA to waive this required information.



Information Technology Service Contract with Booz Allen Hamilton (A-14-13-13009)                                      6
CONCLUSIONS
We determined that SSA ultimately received the services for which it contracted and was
generally satisfied with BAH’s work. However, we found that SSA

    did not always include appropriate, measurable requirements in its SOWs;
    did not fully comply with FAR requirements for price reasonableness evaluations; and
    accepted quotes and invoices from BAH that did not meet the Agency’s requirements.

Because some SOWs did not include appropriate, measurable requirements, it may have taken
longer for SSA to receive the deliverables it requested, and SSA may have paid more than
necessary.

RECOMMENDATIONS
Although the BPA expired on September 15, 2013, we believe SSA should consider the issues
we identified in our audit when entering into and managing other contracts/BPAs in the future.
Therefore, when acquiring specialized commercial advisory and assistance services through the
Federal Supply Schedule going forward, we recommend that SSA:

1. Issue SOWs that include sufficient details to enable the Agency to assess the contractors’
   work performance against measurable performance standards.

2. Consider the proposed level of effort and mix of labor to perform specific tasks to determine
   whether the total price is reasonable before accepting a contractor’s quote.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix B.

OTHER MATTERS
The terms of the BPA required that the vendor supply SSA with an accounting of the direct labor
charged, by labor category, for each deliverable of each call. This accounting must list each
employee, the hours worked, and the hourly rate. 35 We reviewed two invoices for each call in
our sample. For the 15 calls in our sample, we found that BAH did not provide the cost




35
  SSA, SS00-08-40029, Blanket Purchase Agreement (BPA) for Specialized Advisory and Assistance Services,
§ A.1.7.



Information Technology Service Contract with Booz Allen Hamilton (A-14-13-13009)                           7
information required by the BPA when it submitted deliverables to SSA. 36 Nonetheless, SSA
accepted and paid the invoices but did not enforce the BPA requirements. 37

SSA stated that the BPA only allowed for firm-fixed-price call orders. According to the Agency,
the contractor’s quote includes a proposed payment schedule that lists the labor mix, level of
effort, and hourly rate based on GSA’s schedule pricing, and SSA considers all of these factors
before determining whether the quote is fair and reasonable. Further, the Agency stated, “It is
the contractor’s responsibility to complete all tasks using any necessary resources to ensure
deliverables are met by the established delivery schedule. We do not otherwise monitor labor,
material, or other costs for firm-fixed price call orders.”

We believe actual labor, material, and other costs for deliverables is valuable information for
SSA, as it would help the Agency to (1) determine whether it obtained the best value to meet its
needs and (2) evaluate how well the contractor estimated costs, which in turn would help SSA
when evaluating future quotes for similar calls.




36
  BAH submitted monthly invoices, but only those for the six calls using a time and material ordering approach had
accounting data similar to the BPA deliverable requirements. However, none of these invoices linked the cost
information to the deliverables.
37
     We found no evidence that SSA and BAH subsequently modified the BPA to waive this required information.



Information Technology Service Contract with Booz Allen Hamilton (A-14-13-13009)                                 8
                                       APPENDICES




Information Technology Service Contract with Booz Allen Hamilton (A-14-13-13009)
Appendix A – SCOPE AND METHODOLOGY
Our objectives were to (1) determine whether the Social Security Administration (SSA) received
the goods and services for which it contracted and (2) review the services provided by
Booz Allen Hamilton, Inc., (BAH) and the related costs charged to SSA to ensure both parties
adhered to the negotiated contract terms and applicable regulations.

To accomplish the audit objective we:

     Reviewed the Blanket Purchase Agreement SSA awarded to BAH 1 on September 16, 2008 to
      obtain specialized advisory and assistance services from a Federal Supply Schedule. 2

     Reviewed applicable Federal laws, regulations, guidelines, and standards as well as SSA’s
      policies and procedures.

     Interviewed SSA subject matter experts including the current Contracting Officer and
      Contracting Officer Technical Representative.

     Sampled 15 of the 69 calls completed as of December 31, 2012 and tested at least
      1 deliverable and 2 invoices. 3 For each sampled call, we obtained information about the
      processes used to approve the statement of work; accept BAH quotes, deliverables, and
      invoices; and rate BAH’s quality and timeliness of work. We determined whether

       SSA received all the key deliverables and services it contracted;

       SSA paid the invoices in the proper amount and on-time, in accordance with the Prompt
        Payment Act; and

       the deliverables met the Statement of Work’s stated purpose and requirements, and
        provided value for SSA.

We performed our work from March through December 2013 in Baltimore, Maryland. The
principal entities audited were SSA’s Offices of Acquisitions and Grants and Financial Policy
and Operations as well as various components in the Office of Systems.




1
    SSA Award Number SS00-08-40029.
2
 General Service Administration Mission Oriented Business Integrated Services Schedule Contract Number
GS-23F-9755H.
3
 We used a multi-stage, non-statistical sample based on the call value, subject area, and project. Specifically, we
selected the 10 largest calls by dollar amount, and selected 5 calls from what we believed to be the more important
projects. The calls we sampled were: 04, 13, 14, 20, 28, 31, 33, 38, 39, 52, 54, 56, 58, 61, and 62.



Information Technology Service Contract with Booz Allen Hamilton (A-14-13-13009)                                 A-1
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Information Technology Service Contract with Booz Allen Hamilton (A-14-13-13009)             A-2
           Appendix B – AGENCY COMMENTS




                                            SOCIAL SECURITY

MEMORANDUM


Date:      July 3, 2014                                                                   Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Information Technology Service Contract with
           Booz Allen Hamilton, Inc.” (A-14-13-13009) - INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Information Technology Service Contract with Booz Allen Hamilton (A-14-13-13009)                   B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“INFORMATION TECHNOLOGY SERVICE CONTRACT WITH BOOZ ALLEN
HAMILTON, INC.” (A-14-13-13009)

Recommendation 1

Issue Statements of Work (SOW) that include sufficient details to enable the Agency to assess
the contractors' work performance against measurable performance standards.

Response

We agree. We have established guidelines for the SOW to include a section for performance
standards for technical acceptance or acceptable trade-off standards. In accordance with Federal
Acquisition Regulation requirements, to the maximum extent possible, we work with Task
Managers to draft SOWs that clearly identify measurable performance standards that define
technical acceptance criteria and other pertinent information. Our contracting staff reviews the
SOW early in the acquisition process to ensure understanding, accuracy, and completeness.

Recommendation 2

Consider the proposed level of effort and mix of labor to perform specific tasks to determine
whether the total price is reasonable before accepting a contractor's quote.

Response

We agree. However, we believe we already consider the proposed level of effort and mix of
labor to determine if a contractor’s quote is reasonable. All procurement packages must include
an Independent Government Cost Estimate (IGCE), which includes the estimated labor mix and
level of effort needed to perform the tasks successfully. The Task Managers use the IGCE to
plan acquisition costs. Our contracting staff uses the IGCE, market research, and other pricing
tools to determine if the offered pricing is fair and reasonable.

Specifically, we award all call orders under the Specialized Assistance and Advisory Services
(SAAS) Blanket Purchase Agreement (BPA) as firm-fixed price. The contractor’s quote
includes a breakdown of the labor mix and level of effort appropriate for the requirements
specified for contractor completion. Task Managers evaluate this information for
appropriateness and prepare a formal technical evaluation report for the contracting staff. Task
Managers resolve and note any major discrepancies between the IGCE and contractor quotes in
the technical evaluation report. The contracting staff reviews the report and makes the final
decision of price reasonableness.




Information Technology Service Contract with Booz Allen Hamilton (A-14-13-13009)                B-2
Appendix C – MAJOR CONTRIBUTORS
Jeffrey Brown, Director

Grace Chi, Audit Manager

Alan Lang, Senior Auditor

Asad Isfahani, Auditor




Information Technology Service Contract with Booz Allen Hamilton (A-14-13-13009)   C-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
